      MIDWEST REGIONAL OFFICE
            Limited Audit of Financial and Administrative Controls


                               INTRODUCTION
The Office of Inspector General conducted a limited audit of the financial and
administrative controls of the Midwest Regional Office (MRO). The audit procedures
were limited to interviewing MRO staff, reviewing supporting documentation, and
conducting limited tests of transactions. The purpose of the audit was to provide the
Commission with negative assurance that the internal controls were adequate,
implemented economically and efficiently, and in compliance with Commission policies
and procedures.1 The audit was performed in accordance with generally accepted
government auditing standards during June 2004.


                                BACKGROUND
The Midwest Regional Office (MRO) in Chicago, Illinois, administers Commission
programs in the midwestern portion of the United States. In carrying out its
responsibilities, the MRO exercises a broad range of financial and administrative
functions, including maintaining time and attendance records; procuring supplies and
services; arranging for staff travel; maintaining an inventory of property; and recording
budgeted and actual expenditures of the office.


                               AUDIT RESULTS
Our review indicated that the MRO’s controls were generally adequate, implemented
economically and efficiently, and in compliance with Commission policies and
procedures. We discussed several non-material findings and informal recommendations
with MRO management. The MRO generally concurred with the findings and
recommendations.




1
    Negative assurance means that no material internal control weaknesses came to our
    attention during our limited audit.
